Rafael Resendez-Ramirez Case
USDOJ/OIG Special Report
The Rafael Resendez-Ramirez Case:
A Review of the INS's Actions and the Operation of
Its IDENT Automated Fingerprint Identification System
(March 20, 2000)
Table of Contents
Executive Summary
Chapter One: Introduction
Background
The OIG Investigation
Organization of the OIG Report
Chapter Two: Background to IDENT
History of IDENT
Description of How IDENT Works
IDENT Processing
Comparison of the Aliens Fingerprints to IDENT
Databases
The IDENT Lookout Database
The IDENT Recidivist Database
Other Databases
Chapter Three: Resendezs Criminal History and
Apprehensions by the Border Patrol Before 1999
Resendezs Criminal History
Resendezs Seven Apprehensions and Voluntary
Returns to Mexico in 1998
Background
Resendezs Seven Apprehensions in 1998
First Apprehension - January 5, 1998
Second Apprehension  January 7, 1998
Third Apprehension  January 8, 1998
Fourth Apprehension  April 17, 1998
Fifth Apprehension  April 21, 1998
Sixth Apprehension  April 22, 1998
Seventh Apprehension  November 3, 1998
Chapter Four: The Investigation of Resendez for
Murder
The Murder of Dr. Benton
The Police Attempt to Place Lookouts for Resendez
The Police Contact Houston INS Investigators About
Resendez
A Texas Ranger Contacts Another Houston INS
Investigator About Resendez
The Weekly Intelligence Report With Information on
Resendez
The Gulf Coast Violent Offenders Task Force
The FBI Enters the Resendez Investigation
Chapter Five: The Border Patrol Apprehends and
Voluntarily Returns Resendez to Mexico on June 1, 1999
Chapter Six: The Search for and Surrender of
Resendez
The FBI Multi-Agency Task Force
A Lookout Notice is Sent to Border Patrol Sectors
Resendez is Enrolled in IDENTs Lookout Database
Initiative by Border Patrol Agent Estevis
Initiative by United States Marshals Service
Inspector Sorukas
The INSs Investigation into the Resendez Matter
Resendez Surrenders
Chapter Seven: OIG Analysis of the Border
Patrols Apprehensions and Voluntary Returns of Resendez in 1998 and 1999
The Voluntary Returns of Resendez Were in
Accord with Standard Border Patrol Practices and Procedures
The Border Patrol Agents who Processed Resendez in
IDENT Made Mistakes, Although These Mistakes Did Not Affect Their Decision to Voluntarily
Return Resendez
Allowing IDENT to Auto Verify Previous Apprehensions
Denying Valid Hits
Lack of Established Prosecution Thresholds
Chapter Eight: OIG Analysis of the Actions of INS
Investigators and Intelligence Officers Who Were Involved in the Resendez Case
IDENT Lookout Policy
Houston INS Investigators
Special Agent Kelly Dozier
Special Agent Marco Saltarelli and His Supervisors
Special Agent Albert Plasket
Information From IDENT Would Have Been Useful to The
Law Enforcement Agencies Seeking Resendez
INS Intelligence Officers from the Houston District
Office and Central Region
Other INS Employees
INS Liaisons with the Gulf Coast Task Force
Senior Special Agent Thomas Cason
Conclusions
Chapter Nine: OIG Analysis of Broader Problems
with the INSs Implementation and Use of IDENT
The Design of IDENT
The INSs Implementation of IDENT
IDENT Training
Training Recommendations in the OIGs 1998
Inspection Report and the INSs Response
The INS Failed to Train INS Employees Adequately on
IDENT
Training in the El Paso and Del Rio Border
Patrol Sectors
Training in the Houston Investigations Office
Training for Intelligence Employees
The IDENT Lookout and Alert Policy
Development and Distribution of the Policy
The OIGs 1998 Inspection Report
The INSs Response
Houston Investigations Office
El Paso and Del Rio Border Patrol Sectors
Detention and Deportation Offices
Problems with IDENTIX Livescan Machines
Conclusions
Chapter Ten: Integration of IDENT with FBI
Automated Fingerprint Identification Systems
A. History of Efforts to Integrate INS and
FBI Automated Fingerprint Identification Systems
Early Discussions About Integration
Deployment of IDENT
JMDs 1995 Report
JMDs 1998 Report
Current Status of Integration
Conclusions
Chapter Eleven: OIG Recommendations
The Operation of IDENT
Training and Education on IDENT
Integration of IDENT with Other Criminal and INS
Databases
Other Recommendations
Chapter Eleven: OIG Conclusions
Appendix A: Glossary of Terms and Names
Appendix B: History of IDENT
Appendix C: INS and Criminal Databases
Appendix D: Details of Resendez's Criminal History
Appendix E: Exhibits
*****
#####
#####